—V.*

AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19X

KANEKA CORPORATION, A JAPANESE CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A CHINESE
CORPORATION, PACIFIC RAINBOW INTERNATIONAL INC., A
CALIFORNIA CORPORATION,
Respondents.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Simone Cintron, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 17th day of March, 2020,1 served the within Petition of Writ of
Certiorari in the above-captioned matter upon:
Lei Mei
Mei & Mark LLP
Attorneys for Respondents
818 18th Street NW, Suite 410
Washington, DC 20006
(202) 567-6417
mei@meimark.com
by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court forty copies of the within
Petition of Writ of Certiorari through the United States Postal Service by Express
Mail, postage prepaid. The filing fee check was previously sent on January 10th,
2020.

«•»

‘u—

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th day of March 2020.

Simone Cintron
Sworn to and subscribed before me this 17th day of March 2020.

^Melendez
Notary Rublic State of New York
No. 24-4/99661
Qualified in Kings County
Commission Expires Aug. 31, 2021

# 295243

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859
www.counselpress.com

■ 1

AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19X

KANEKA CORPORATION, A JAPANESE CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A CHINESE
CORPORATION, PACIFIC RAINBOW INTERNATIONAL INC., A
CALIFORNIA CORPORATION,
Respondents.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Simone Cintron, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 17th day of March, 2020,1 served the within Supplemental
Appendix in the above-captioned matter upon:
Lei Mei
Mei & Mark LLP
Attorneys for Respondents
818 18th Street NW, Suite 410
Washington, DC 20006
(202) 567-6417
mei@meimark.com
by depositing one copy of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court eleven copies of the
within Supplemental Appendix through the United States Postal Service by
Express Mail, postage prepaid.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th day of March 2020.

Simone Cintron
Swornt-o and subscribed before me this 17th day of March 2020.

Z

^Etias Melenjdez
Notary Public State of New York
No. 24-4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021

# 295243

0

COUNSEL PRESS

(800)274-3321 *(800)359-6859
www.counselpress.com

iV

AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19X

KANEKA CORPORATION, A JAPANESE CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A CHINESE
CORPORATION, PACIFIC RAINBOW INTERNATIONAL INC., A
CALIFORNIA CORPORATION,
Respondents.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Simone Cintron, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 17th day of March, 2020,1 served the within Sealed Supplemental
Appendix in the above-captioned matter upon:
Lei Mei
Mei & Mark LLP
Attorneys for Respondents
818 18th Street NW, Suite 410
Washington, DC 20006
(202) 567-6417
mei@meimark.com
by depositing one copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository
maintained by the United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court eleven copies of the
within Sealed Supplemental Appendix through the United States Postal Service
by Express Mail, postage prepaid.

m '—«

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 17th day of March 2020.

Simone Cintron
SworrKo and subscribed before me this 17th day of March 2020.
t

i

/

^EUasMe endez
Notary P lblic State of New York
No. 24-4^9661
Qualified in Kings County
Commission Expires Aug. 31, 2021

# 295243

0

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

